In The
Supreme Court of the United States
No. 19-680
KENNETH SEALEY, in his individual capacity; and ROBERT E. PRICE,
Administrator C.T.A. of the Estate of Joel Garth Locklear, Sr.,
Petitioners,
v.
J. DUANE GILLIAM, Guardian of the Estate of Leon Brown; and
RAYMOND C. TARLTON, Guardian Ad Litem for Henry Lee McCollum,
Respondents.
AFFIDAVIT OF COMPLIANCE
This Reply to Response to Petition for Writ of Certiorari has been prepared
using:
Microsoft Word 2016;
Century Schoolbook;
12 Point Type Space.
As required by Supreme Court Rule 33.1(h), I certify that the Reply to
Response to Petition contains 3,000 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

